                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Western Region




               Audit Report

             Farm Service Agency
Apple Market Loss Assistance Payment Program




                              Report No. 03601-12-SF
                                           June 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:         June 4, 2004

REPLY TO
ATTN OF:      03601-12-SF

SUBJECT:      Apple Market Loss Assistance Payment Program

TO:           James R. Little
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff


This report presents the results of our survey of the Apple Market Loss Assistance Payment
(AMLAP) program, which provided $261.5 million to apple growers who suffered losses due to
low market prices. Our objectives were to evaluate the Farm Service Agency’s (FSA)
administration of the AMLAP program and to determine whether effective controls for the
program had been established. During our survey, we focused on program payments made in the
Washington State FSA Office because it disbursed over 51 percent ($133 million) of the total
program payments and annually produces over half of the nation’s apples. Although FSA
generally administered the program correctly, we found 11 out of 20 judgmentally selected
growers incorrectly certified their production when applying for the AMLAP program. As a
result, four growers were overpaid $4,710 and seven growers were underpaid $12,050, totaling
$16,760 in improper payments. In the total scope of this program, we concluded that the small
amount of these improper payments was not at a materiality level sufficient to require additional
audit work. See exhibit A for a summary of the monetary results. See exhibits B and C for
additional information on the overpayment and underpayment calculations, respectively.

BACKGROUND
During the late 1990’s, apple growers experienced the lowest prices in a decade for their crops.
A combination of economic factors such as increasing world production, stagnant domestic
consumption, natural disasters, and low-priced imports resulted in low market prices for apples.
In response, Congress enacted the AMLAP program, authorizing FSA to pay over $268 million
to assist apple growers in offsetting losses due to low market prices. FSA provides assistance to
growers through a variety of farm programs that are serviced by a network of State and county
offices.
James R. Little                                                                                                                   2


The AMLAP program was enacted in three phases, establishing payment rates and maximum
                                                                                       1
eligible production amounts for each phase. Congress enacted the initial phase, AMLAP I , on
October 28, 2000, to provide payments for crop year 1998 or 1999. The subsequent phases,
            2       3                                      4
AMLAP II and III , provided payments for crop year 2000. Growers self-certified their total
pounds of apples harvested to receive AMLAP program payments.
                                                                           5
FSA made payments to growers or “apple operations” based on a fixed national payment rate
that was calculated for each AMLAP program phase by the FSA National Office. The payment
rate was calculated by dividing the total appropriated funds (less a reserve amount) by the total
                            6
pounds of harvested apples. Grower payments were calculated by multiplying the self-certified
production amount (up to a maximum amount) by the payment rate. See exhibit D for a
summary of the AMLAP program phases.

OBJECTIVES
Our objectives were to evaluate FSA’s administration of the AMLAP program and to determine
whether effective controls for the program had been established. Specifically, we determined
whether (1) growers were eligible to receive AMLAP payments, (2) growers accurately reported
their production amounts, and (3) FSA correctly computed payment amounts.

SCOPE
This was a nationwide review of AMLAP I – III program payments made to apple growers for
production in crop years 1998 through 2000. We selected Washington State for review because
it produced about 53 percent of the nation’s apples and received over 51 percent ($133 million)
of total program payments ($261.5 million). Also, we collected spot check results from New
York State, the second largest apple-producing State, which disbursed $29 million in AMLAP
payments.

For AMLAP II and III, the Yakima County FSA Office in Washington disbursed $30 million,
which was the largest amount of AMLAP payments for any county office in the State. We
judgmentally selected 20 growers that were near the maximum payment amount and had not
been selected for spot check. In addition, their payments were rounded, which we considered to
be an indicator of estimated, not actual, production. Our sampled growers received a total of
$1.3 million from Yakima County.

1
  Public Law (P.L.) 106-387, section 811, dated October 28, 2000.
2
  P.L. 107-76, section 741, dated November 28, 2001; amended by P.L. 107-117, section 102, dated January 10, 2002.
3
  P.L. 107-171, section 10105, dated May 13, 2002.
4
  The funds available to make payments under AMLAP II were not sufficient to cover all the losses incurred by producers with respect
to their 2000 crop of apples. Congress authorized AMLAP III payments to provide additional assistance.
5
  FSA defines an apple operation as any person or group of persons who, as a single unit, as determined by the Commodity Credit
Corporation, produce and market apples and whose production and facilities are located in the United States.
6
  7 CFR 1470.9 (March 8, 2001); 7 CFR 1470.109 (September 12, 2002); and 7 CFR 1470.209 (October 11, 2002).
James R. Little                                                                                                                   3


Fieldwork was performed in July through October 2003 at the FSA National Office in
Washington, D.C.; Washington State FSA Office in Spokane; Yakima County FSA Office in
                                                     7
Yakima, Washington; and New York State FSA Office in Syracuse. The review was performed
in accordance with generally accepted government auditing standards.

METHODOLOGY
To accomplish our objectives, we (1) interviewed FSA officials, and reviewed applicable laws,
regulations, policies, and procedures to determine how the AMLAP program was administered at
the FSA National, State, and county offices; (2) reviewed the program applications in our
sample; (3) obtained production records from packinghouses and warehouses, (4) analyzed
grower FSA files; (5) compared production records with self-certified production amounts to
identify discrepancies; (6) interviewed growers to determine reasons for the discrepancies; and
(7) verified whether spot checks were performed and analyzed for any trends.

FINDING
Eleven out of twenty sampled growers incorrectly certified their production when applying for
the AMLAP program. This occurred because the growers either estimated their production or
provided inaccurate information to FSA. As a result, four growers were overpaid $4,710 and
seven growers were underpaid $12,050, totaling $16,760 in improper payments.

The AMLAP program was a self-certifying program where the growers were not required to
show documentation of production amounts to apply for payment. Regulations state that
growers must, “certify to the accuracy and truthfulness of the information provided in their
                                                      8
application...[which]…is subject to verification….” AMLAP applications required growers to
certify that the total reported pounds of apples produced and harvested were “true and correct.”

We obtained production records for 20 sampled growers, verified their production directly with
warehouses and packinghouses, and compared it with the certified production they reported to
FSA. We found that four growers were overpaid and seven were underpaid because (1) the
packinghouses made errors when recording production, (2) the growers’ personal production
records were inaccurate, (3) the growers either over- or underestimated the total number of bins,
                                             9
or (4) the growers used standard bin weights because they claimed that actual pounds were not
yet available. However, since the program phases were administered 2 years after the respective
crop years, production records should have been available.

FSA should collect $4,710 from the four growers who were overpaid. In an August 2, 2001,
memorandum to the Washington State FSA Office, the Acting Deputy Administrator for Farm
Programs established policy for evaluating requests for additional payments in cases where
7
  Fieldwork for the New York State FSA Office included conducting interviews with FSA officials and collecting spot check results to
determine whether state administrators encountered any unusual situations during the program.
8
  7 CFR 1470.4 (March 8, 2001); 7 CFR 1470.104 (September 12, 2002); and 7 CFR 1470.204 (October 11, 2002).
9
  The standard bin weight used is 875 pounds; the Risk Management Agency also uses this bin weight.
James R. Little                                                                              4


growers were underpaid due to certification errors. The Acting Deputy Administrator
determined these errors would not be a basis for issuing additional payments. For the seven
growers who were underpaid $12,050, the Washington State FSA Office should follow this
policy. Therefore, we are not making any recommendation on these underpayments.

Recommendation No. 1:
FSA should collect the overpayments of $4,710 from the four growers who overreported their
production.

Agency Response:
FSA concurred with this finding and recommendation. As of April 29, 2004, three of the four
overpayments totaling $4,523 have been collected by administrative offset, and a receivable
letter has been sent to grower No. 3 to collect the remaining outstanding overpayment of $187.

OIG Position:
We accept FSA’s management decision on this recommendation. For final action, FSA needs to
forward documentation to the Office of the Chief Financial Officer (OCFO) showing collection
of the $187 overpayment from grower No. 3. For the other three growers, FSA has collected by
administrative offset the overpayments totaling $4,523; we are forwarding to OCFO the FSA
documents showing collections of these overpayments.

CONCLUSION AND REQUIRED AGENCY ACTION:
Your May 11, 2004, response (excluding enclosures) to the draft report has been included as
exhibit E of this report. We have accepted your management decision. See instructions above for
taking final action.

Departmental Regulation 1720-1 requires final action to be taken within 1 year of the
management decision to preclude being listed in the Secretary’s Report on Performance and
Accountability. Please follow your internal agency procedures in forwarding final action
correspondence to OCFO.

We appreciate the assistance and cooperation of your staff during our review.


/S/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
                                                                                                                  5


Exhibit A – Summary of Monetary Results
                                                                                             Exhibit A – Page 1 of 1



    FINDING     RECOMMENDATION
                                                   DESCRIPTION                AMOUNT          CATEGORY
    NUMBER          NUMBER

                                          Four growers overreported their                 Questioned Costs –
       1                   1              production amounts when applying    $ 04,710    Recovery
                                          for the AMLAP program.                          Recommended

                                          Seven growers underreported their
       1                 N/A1             production amounts when applying    $ 12,050    Other –
                                          for the AMLAP program.                          Underpayments


TOTAL MONETARY RESULTS                                                        $ 16,760
1
 We are not making any recommendation on these underpayments because FSA’s Acting Deputy Administrator for Farm
Programs determined these errors would not be a basis for issuing additional payments.
                                                                                                   6




Exhibit B – Overpayments
                                                                              Exhibit B – Page 1 of 1


                                                       OVER-
                      PAYMENT        PRODUCTION
                                                     REPORTED          AMLAP          OVER-
 GROWER   PROGRAM       RATE           AMOUNT
                                                    PRODUCTION        PAYMENT        PAYMENT
   NO.     PHASE                      CERTIFIED
                      (Dollars Per                    AMOUNT          AMOUNT         AMOUNT
                        Pound)        (In Pounds)
                                                      (In Pounds)

   A         B             C              D                E            CxD             CxE

          AMLAP II     0.0109149                                       $ 053,196        $ 1,394
   1                                   4,873,750        127,750
          AMLAP III    0.0134464                                       $ 065,534        $ 1,718

                                               Total Overpayments to Grower No. 1       $ 3,112

          AMLAP II     0.0109149                                       $ 036,303        $ 0,621
   2                                   3,326,000        056,905
          AMLAP III    0.0134464                                       $ 044,723        $ 0,765

                                               Total Overpayments to Grower No. 2       $ 1,386

          AMLAP II     0.0109149                                       $ 045,518        $ 0,084
   3                                   4,170,250        007,695
          AMLAP III    0.0134464                                       $ 056,075        $ 0,103

                                               Total Overpayments to Grower No. 3       $ 0,187

   4      AMLAP I      0.0176845       1,584,476        001,431        $ 028,021        $ 0,025

                                               Total Overpayments to Grower No. 4       $ 0,025

                                                      TOTAL OVERPAYMENTS                $ 4,710
                                                                                                                    7



Exhibit C – Underpayments
                                                                                               Exhibit C – Page 1 of 1


                                                                    UNDER-
                                 PAYMENT        PRODUCTION
                                                                   REPORTED           AMLAP            UNDER-
    GROWER       PROGRAM           RATE           AMOUNT
                                                                  PRODUCTION         PAYMENT          PAYMENT
      NO. 1       PHASE                          CERTIFIED
                                 (Dollars Per                       AMOUNT           AMOUNT           AMOUNT
                                   Pound)         (In Pounds)
                                                                     (In Pounds)

      A               B               C                D                  E             CxD              CxE

                  AMLAP II        0.0109149                                            $ 50,035         $ 04,539
       5                                           4,584,117           415,883
                  AMLAP III       0.0134464                                            $ 61,640         $ 05,592

                                                            Total Underpayments to Grower No. 5         $ 10,131

       6          AMLAP I         0.0176845        1,500,000           34,848          $ 26,527         $ 00,616

                                                            Total Underpayments to Grower No. 6         $ 00,616

                  AMLAP II        0.0109149                                            $ 49,863         $ 00,191
       7                                           4,568,375          0017,500
                  AMLAP III       0.0134464                                            $ 61,428         $ 00,235

                                                            Total Underpayments to Grower No. 7         $ 00,426

       8          AMLAP I         0.0176845        1,540,000           021,777         $ 27,234         $ 00,385

                                                            Total Underpayments to Grower No. 8         $ 00,385

       9          AMLAP I         0.0176845        1,578,373           021,627         $ 27,913         $ 00,382

                                                            Total Underpayments to Grower No. 9         $ 00,382

                  AMLAP II        0.0109149                                            $ 41,488         $ 00,029
      10                                           3,801,000           002,625
                  AMLAP III       0.0134464                                            $ 51,110         $ 00,035

                                                           Total Underpayments to Grower No. 10         $ 00,064

      11          AMLAP I         0.0176845        1,594,250           002,625         $ 28,194         $ 00,046

                                                           Total Underpayments to Grower No. 11         $ 00,046

                                                                   TOTAL UNDERPAYMENTS                  $ 12,050
1
 Based on an August 2, 2001, memo from FSA’s Acting Deputy Administrator for Farm Programs, these growers are not
entitled to additional payments.
                                                                                                                         8



Exhibit D – AMLAP Program Summary
                                                                                                    Exhibit D – Page 1 of 1




                                                     MAXIMUM
                                                      ELIGIBLE             PAYMENT RATE                  TOTAL
PROGRAM PHASE               CROP YEARS              PRODUCTION               PER POUND                 PAYMENTS3
                                                      AMOUNT2
                                                                                (Dollars)                (Millions)
                                                     (Millions lbs.)

      AMLAP I               1998 or 1999 1                 1.6                  0.0176845                 $ 095.1

     AMLAP II                    2000                      5.0                  0.0109149                 $ 074.3

     AMLAP III                   2000                      5.0                  0.0134464                 $ 092.1

                                                                                        TOTAL             $ 261.5
1
  Growers were paid for the larger of their 1998 or 1999 crop during AMLAP I.
2
  Eligible production means apples that were produced and harvested in the United States anytime during the program’s
applicable crop year(s) up to a specific maximum amount per apple operation.
3
  Even though Congress authorized AMLAP program payments in excess of $268 million, portions were allocated to
reserve amounts before payments were made.
Exhibit E – FSA Response to the Draft Report
                                               Exhibit E – Page 1 of 1
